<html>
<title> - CHINA'S ONE-CHILD POLICY: THE GOVERNMENT'S MASSIVE CRIME AGAINST WOMEN AND UNBORN BABIES</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



               CHINA'S ONE-CHILD POLICY: THE GOVERNMENT'S
                    MASSIVE CRIME AGAINST WOMEN AND
                             UNBORN BABIES

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                            AND HUMAN RIGHTS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 22, 2011

                               __________

                           Serial No. 112-105

                               __________

        Printed for the use of the Committee on Foreign Affairs


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>





 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
68-446PDF                 WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
VACANT
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

        Subcommittee on Africa, Global Health, and Human Rights

               CHRISTOPHER H. SMITH, New Jersey, Chairman
JEFF FORTENBERRY, Nebraska           DONALD M. PAYNE, New Jersey
TIM GRIFFIN, Arkansas                KAREN BASS, California
TOM MARINO, Pennsylvania             RUSS CARNAHAN, Missouri
ANN MARIE BUERKLE, New York
















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Ms. Ji Yequig, victim of forced abortion.........................     5
Ms. Liu Ping, victim of forced abortion..........................    11
Valerie Hudson, Ph.D, professor, Department of Political Science, 
  Brigham Young University.......................................    18
Ms. Chai Ling, founder, All Girls Allowed........................    35
Ms. Reggie Littlejohn, founder and president, Women's Rights 
  Without Frontiers..............................................    42

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Ms. Ji Yequig: Prepared statement................................     8
Ms. Liu Ping: Prepared statement.................................    15
Valerie Hudson, Ph.D.: Prepared statement........................    22
Ms. Chai Ling: Prepared statement................................    39
Ms. Reggie Littlejohn: Prepared statement........................    46

                                APPENDIX

Hearing notice...................................................    68
Hearing minutes..................................................    69
Ms. Reggie Littlejohn: Women's Rights Without Frontiers report...    70

 
CHINA'S ONE-CHILD POLICY: THE GOVERNMENT'S MASSIVE CRIME AGAINST WOMEN 
                           AND UNBORN BABIES

                              ----------                              


                      THURSDAY, SEPTEMBER 22, 2011

              House of Representatives,    
         Subcommittee on Africa, Global Health,    
                                   and Human Rights
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 p.m., in 
room 2200, Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order. And we are 
awaiting the arrival of my distinguished colleague Don Payne, 
who will be here shortly, as well as our other members, who 
will be here shortly as well.
    I want to thank you for coming to this extremely important 
hearing as we examine the consequences of some 33 years of 
China's implementation of this one-child-per-couple policy. 
China's one-child policy is state-sponsored cruelty and 
constitutes massive crimes against humanity. Indeed, the 
Nuremberg Nazi war crimes tribunal properly construed forced 
abortion as a crime against humanity.
    Nothing in human history compares to the magnitude of 
China's 33-year assault on women and children. Today in China, 
rather than being given maternal care, pregnant women, without 
birth-allowed permits, are hunted down and forcibly aborted. 
They are mocked, belittled, and humiliated. There are no single 
moms in China, except those who somehow evade the family 
planning cadres and conceal their pregnancy. For over three 
decades, brothers and sisters have been illegal; a mother has 
absolutely no right to protect her unborn baby from state-
sponsored violence.
    Over the years, I have chaired 29 congressional human 
rights hearings focused in whole or in part on China's one-
child-per-couple policy. At one, the principal witness, Wuijan, 
a Chinese student attending a U.S. university, testified how 
her child was forcibly murdered by the government. She said, 
and I quote, in part, ``The room was full of moms who had just 
gone through a forced abortion. Some moms were crying. Some 
moms were mourning. Some moms were screaming. And one mom was 
rolling on the floor with unbearable pain.'' Then Wuijan said 
it was her turn, and through her tears she described what she 
called her ``journey in hell.''
    We will be hearing the testimony of other victims of forced 
abortion today, and we are extremely grateful to them for 
joining us. Not only does it take a great deal of courage to 
share what must be one of the most painful experiences of their 
lives, but they are also speaking truth to power, a Chinese 
Government that may well retaliate not only against them, if 
given the opportunity, but also against family members who may 
still be in China. Again, we thank them for sharing their very, 
very sad and tragic stories.
    Women bear the major brunt of the one-child policy not only 
as mothers. Due to male preference in China's society and the 
limitation on the family size to one child, the policy has 
directly contributed to what is accurately described as 
gendercide, the deliberate extermination of a girl, born or 
unborn, simply because she happens to be female.
    As a result of the Chinese Government's barbaric attack on 
mothers and their children, the U.S. State Department estimated 
a full 10 years ago that there may be 100 million more males 
than females in China today. It has been noted that the three 
most dangerous words in China are ``It's a girl.''
    In July, I offered an amendment demanding the release and 
an end to the torture of the Chinese defense attorney Chen 
Guangcheng, who bravely defended forced abortion victims in 
China. Both Chen and his wife Yuan Weijing are at risk of dying 
from repeated beatings by the Chinese secret police and refused 
access to critically needed medical care.
    In the latter part of August when Vice President Joe Biden 
visited China, he stated that he ``fully understood'' the one-
child policy, and that he is not ``second-guessing'' it. His 
words. Can you imagine what the public reaction would be if the 
Vice President of the United States said that he fully 
understands and is not second-guessing copyright infringement 
or gross violations of intellectual property rights? When it 
comes to things, when it comes to products, there would be a 
huge cry from the United States if the Vice President were to 
say that he fully understands that kind of violation of rights. 
Not so when it comes to women who are being degraded and 
humiliated, and their children destroyed, and their lives 
destroyed.
    It is worth noting that the World Health Organization 
suggested there are some 500 women per day--not per week, per 
month, but per day--who commit suicide. Attributable--we don't 
know what to extent--but clearly by the anecdotal information--
in large part to the terrible deprivations that are imposed on 
them through forced abortion, of having their children 
literally stolen from them and then killed by the state.
    The one-child-per-couple policy is the most egregious 
systematic attack on mothers ever. For my Vice President to 
publicly state that he fully understands the one-child policy 
and then say he won't second-guess it is unconscionable and 
sells out every mom in the PRC who has suffered from this 
abuse. Instead of defending the one-child policy, Vice 
President Biden should have asked for the release of Chen and 
his wife Yuan, or at least made a formal request to see them.
    Although Vice President Biden attempted to backtrack on his 
extraordinarily callous comment about the policy, his record in 
the U.S. Senate shines a spotlight on his long-held disregard 
for the severity of this human rights violation. On September 
13, 2000, he joined 52 other Senators in defeating an amendment 
by then-Senator Jesse Helms condemning the one-child policy. I 
would note parenthetically that 15 years before, I offered a 
very similar amendment. It passed unanimously in the House. It 
didn't pass in the Senate. And then-Senator Biden reportedly 
blocked it because he was concerned that condemning China on 
fundamental human rights would interfere with the normalization 
of trade relations.
    I would note parenthetically that when President Clinton 
linked human rights, including the issue of forced abortion, in 
1993 as a condition of Most Favored Nation status. I was at the 
lead of the pack defending the President, a Democrat President, 
for listing human rights and linking it to our trading policy 
with the PRC. Sadly, on May 26, 1994, he delinked those human 
rights on a Friday afternoon, and only David Bonior, Nancy 
Pelosi--not yet Speaker--and I held press conferences saying, 
how could you delink human rights and throw the people of 
China, who aspire to freedom and democracy and human rights, 
under the bus?
    I invited the Vice President to join us at this hearing to 
explain his full understanding of the one-child policy. I have 
been informed that he is not in DC today and could not attend. 
Given the grave importance of this issue and literally millions 
of lives at stake, I extend to the Vice President an open 
invitation to testify at a hearing at his convenience to share 
his ``understanding'' with the subcommittee and what actions, 
if any, the Obama administration will take in ending this 
barbaric policy.
    I would note that he was the chairman of the Foreign 
Relations Committee--and I have served with him for years. Our 
careers have coincided. I offered the first amendment ever on 
the forced abortion policy back on May 9, 1984, and filled the 
record with documentation, much of it Chinese documentation, 
some of it from the Frontline and 60 Minutes pieces that were 
done, some that were in the Washington Post. There is no doubt 
that we knew even then how horrific this policy was. 
Unfortunately, he says that he fully understands this and is 
not going to second-guess it.
    I also asked Secretary of State Hillary Clinton at a 
hearing on March 1 of this year whether or not she or President 
Obama raised the issue of coerced abortion and gendercide in 
China directly in the face-to-face meeting with Hu Jintao when 
he was here in Washington. Chai Ling and Reggie Littlejohn will 
remember because we held a press conference imploring, pleading 
with the President to raise this issue in his face-to-face 
meetings and in any press conference which he had later on that 
week with Hu Jintao. Not a word, not a word was uttered in a 
state dinner; instead lavishing praise was heaped upon Hu 
Jintao, who oversees a gulag state. Not a word about any of 
this. Secretary Clinton said she didn't know; she refused to 
answer the question, but would get back to us. We are still 
waiting. That was March 1. We still have not heard a word about 
whether or not the President raised this.
    Democrat or Republican, I don't care who is in the White 
House, we have a duty, I believe, to raise human rights with 
dictatorship and not lose that opportunity.
    I read the People's Daily the day after Hu Jintao was at 
the White House. It was filled with praise from the U.S. 
President, filled with praise from the U.S. Government about Hu 
Jintao's dictatorship. So they certainly were not held to 
account in any way, shape, or form.
    Not only is the current administration turning a blind eye 
to the atrocities being committed under the one-child-per-
couple policy, but it has even contributed financial support, 
contrary to U.S. law, through the UNFPA. As I said 27 years 
ago, on May 9, 1984, I offered the first foreign aid amendment 
to deny funding to any organization--I don't care who it is--
that in any way supports or co-manages a coercive population-
control program. Voluntary, yes, but not involuntary, not 
coercive. And unfortunately we have not seen this 
administration step up to the plate. As a matter of fact, we 
have provided over $50 million per year to the UNFPA and nary a 
concern expressed about the women who are suffering.
    I asked Wei Jingsheng, the father of the democracy 
movement, at a hearing like this, after he got out of prison, 
what he thought about the UNFPA's complicity in forced abortion 
in China, and he said it was an abomination and went on and on 
to say that to have the U.N. working hand in glove with the 
state family planning cadres in oppressing women is 
unthinkable, and yet it is the reality.
    I would point out that in June 2008, Deputy Secretary of 
State John Negroponte notified Congress under the previous 
administration, that the UNFPA was denied funding because--and 
he said this--because it provided financial and technical 
resources through its sixth cycle China Country Program to the 
National Population and Family Planning Commission and related 
agencies. He also pointed out that the UNFPA and all foreign 
organizations operating there fully comply, adhere to Chinese 
law. So they follow what is prescribed by the State Family 
Planning Council and then adhere to it and implement that very 
policy that so injures and hurts women.
    On one of my several trips to Beijing, I challenged Peng 
Peiyun, then China's director of the nation's population 
control program, to end the coercion, and we had a very robust 
debate. Madam Peng told me that the UNFPA was very supportive 
of the one-child-per-couple policy and repeatedly said that 
they say there is no coercion. So how could I be raising the 
issue when this organization had so whitewashed and presented 
for all comers and all critics that it is a totally voluntary 
program? As a matter of fact, for 30 years, UNFPA has heaped 
praise on China's program, again, to the detriment of the women 
who have suffered so egregiously.
    I also am concerned--and I will conclude with this and then 
go to our very distinguished witnesses who are here today--that 
the program of China is also being exported. There was a group 
of sub-Saharan African health ministers invited a couple years 
ago to learn the blessings of child limitation, China style. 
And even Paul Kagame of Rwanda has said he wants a three-child-
per-couple policy so that they can reap the economic benefits 
that China has reaped. And unfortunately, you only get there 
through coercion.
    And I will say to our witnesses--and I am so grateful for 
them all being here--that your witness today--you know, I have 
read Bare Branches. I read it soon after it came out, Dr. 
Hudson, and it raised a whole new area that Congress needs and 
anyone of concern needs to take seriously about the 
consequences to the fabric of society in China, the gangs that 
are already forming but will only get worse as time goes on. 
Men will not be able to find wives. I know we have different 
estimates, no one knows for sure, but Chinese demographers 
suggests that by 2020, 40 million men will not be able to find 
wives. They have been exterminated through this anti-girl 
policy and anti-woman policy. And the impacts, even in a larger 
context, to nearby countries and really the world, is very, 
very significant in terms of potential war. And I know you make 
that point so clearly in the book.
    I would now turn to our witnesses, beginning first with Ms. 
Ji Yeqing, who was born in 1975, grew up in a small town 
outside of Shanghai. After completing high school, she worked 
in an automobile assembly plant. She married her husband in 
1996 and had a daughter the following year. Her peaceful life, 
however, was shattered after two forced abortions in 2003 and 
2006. Along with the implementation, involuntarily, of an IUD, 
these violations took a grave toll on her body and on her 
marriage, which ended in 2008. Ms. Ji escaped to the United 
States in October of last year and has since remarried and will 
tell her story in a moment.
    And then we will be hearing secondly, testifying under a 
pseudonym behind a closed area, and that will be Ms. Liu Ping, 
who was born in Tianjin, China, in 1958. Because of the 
Cultural Revolution, she was unable to finish school. She and 
her husband married in 1981, just after the one-child-per-
couple policy began. As a worker in a textile factory, she was 
forced by the Family Planning Commission to undergo five 
abortions. She came to the U.S. in 1999 and lives with her 
husband in New England. Ms. Liu has one son and also lives in 
the United States. Her dream is to finish her education and 
return to school. She is behind that barrier to prevent 
retaliation against her family in China.
    Ms. Ji, and then I will go to our other witnesses 
momentarily.

     STATEMENT OF MS. JI YEQUIG, VICTIM OF FORCED ABORTION

    [The statement and answers of Ms. Ji were delivered through 
an interpreter.]
    Ms. Ji. Mr. Chairman Smith and honorable Members of 
Congress, my name is Ji Yeqing. I was born December 2, 1975, in 
Jiading, Shanghai. I married Liu Bin in Shanghai in October 
1996. My daughter Liu Yiyang was born on September 7, 1997. 
After she was born, the family planning agencies ordered me to 
go to the hospital and have an IUD inserted into my uterus 
after I was done nursing my child. At that time, my husband and 
I both wanted another child. My in-laws also had a very strong 
bias against girls and urged us to have a son. As a result, I 
did not go to the hospital for the IUD.
    My husband and I decided then we would wait to have a 
second child until our daughter was old enough to attend 
kindergarten. I would then have time and energy to take care of 
the children. So I bought pills every month from the pharmacy 
for contraception. When the child was 4 and in kindergarten, we 
stopped the contraception.
    In June 2003, I discovered that I was pregnant again after 
a checkup at the only gynecologist clinic nearby, the Jiading 
District Women and Children's Clinic. Both my husband and I 
were very happy. However, the clinic was in close cooperation 
with the Family Planning Commission of Xiaomiao Village, 
Jiading District of Shanghai, and reported my pregnancy. The 
day after my checkup at the clinic, Li Chunping of the Family 
Planning Commission and three other agents came to our home and 
told me that, according to China's one-child policy, we could 
not have a second child. I was pregnant again. I had no choice 
but to undergo an abortion; otherwise, we would be sabotaging 
the family planning policy and breaking the law. Not only would 
we be fined 200,000 yuan, equivalent to $31,300, which was more 
than three times our combined annual income, but also, we would 
be fired from our jobs. We were very afraid at the time of 
losing our jobs. We could never acquire enough money to pay the 
exorbitant fines.
    Li then brought me to the same clinic to force an abortion. 
After that operation, they made me promise that I would have 
the IUD put in. I told them I would do it after my body 
recovered. Only then did they release me.
    But I never did get the IUD implemented because I was still 
very hesitant about the IUD procedure. I had heard it was very 
painful, and it could produce serious physical complications. 
So I continued taking contraceptive pills. My in-laws insisted 
that we try for another pregnancy. They also promised to give 
us money to pay for the fines. They wanted a grandson, even if 
it would cost 200,000 yuan.
    My husband persuaded me to stop taking the pills in 
February 2006. I was pregnant again in September of the same 
year. We were determined to have another child and prepared for 
the fines. After my checkup at the hospital, like the previous 
time, the Family Planning Commission learned of it the very 
next day. We had known of the close cooperation between the 
clinic and the local birth-planning agencies, so we expected 
this. But there was only one licensed hospital in that area, so 
we had no choice but to go there for checkups.
    Two days after my visit to the hospital, Li Chunping and 
five other agents came to our home to ask why I had not had the 
IUD inserted and why I had decided to get pregnant again. I 
told them that I wanted another child, and we were prepared to 
pay for the fine. Li stated that Chinese law decreed that the 
second child was forbidden. Even after it was born, the child 
could not be registered and would not be able to attend school. 
More than the fines, we would be fired from our jobs with a 
child that would never be registered by the census. But by this 
time, we were not afraid. We were willing to take the 
punishment of fines and losing our jobs. It wasn't as important 
as for us to have our child again.
    Li then ordered the other agents to bring me to the 
hospital for a forced abortion. They surrounded us. Li and two 
others grabbed me by the arm and dragged me outside. Two others 
stopped my husband Liu Bin from rescuing me and started beating 
him. I begged them to spare us. We only wanted another baby. I 
never wanted to do anything evil. Why did they keep such a 
close watch over us? I also said we were willing and prepared 
to pay the fine.
    I kept begging them in tears, but it was no use. Then I 
threatened to take legal action, but Li replied that my 
pregnancy with the second child was illegal already, so 
reporting the case to the court would be useless.
    I could not free myself, although I struggled all the way. 
They dragged me down from the fourth floor into a waiting car 
and then drove me into Jiading Women and Children's Clinic and 
pulled me directly into the operating room. Li held me down in 
the bed and sedated me. The abortion was performed while I was 
unconscious. When I came to, I was already in the recovery room 
outside the operating room. Doctors told me that they had 
inserted the IUD immediately after the abortion, and that I was 
responsible for the cost of the IUD procedure. So the IUD was 
installed inside me against my will while I was laying 
unconscious, completely unaware and unable to defend myself.
    After the abortion I felt empty, as if something was 
scooped out of me. My husband and I had been so excited for our 
new baby. Now suddenly all that hope and joy and excitement 
disappeared, all disappeared in one instant. I was very 
depressed and despondent. For a long time, whenever I thought 
about my lost child, I would cry.
    After the IUD insertion, my body continued to feel 
discomfort, frequently with back pain. I wanted the IUD taken 
out, but the hospital never allowed it. Removal of the IUD 
required a stamped permission from the Family Planning 
Commission. When I went to the Family Planning Commission, Li 
Chunping was very determined in her refusal. She said that 
physical reactions to the IUD were normal, and there was no 
need to panic. Removal of the IUD was impossible for me.
    After 2 years of living with that pain, my in-laws gave up 
hopes that they would have a grandson through me. They began 
pressuring my husband to divorce me. At that time my husband 
had also started to change. He frequently stayed away from home 
for several nights. When I tried to reason with him, he said 
that since I had not given him a son, he would find someone 
else who would. I felt desperate. I lost all hope and 
confidence in my marriage. At the end of 2008, in tears, I 
signed the divorce agreement Liu Bin handed to me. And so my 
first marriage ended after a great deal of suffering.
    I met my current husband Gong Xiaolin in 2009, married him 
in October 2010, and then came with him to the United States. 
We would love to have another child together. Upon arrival in 
the U.S., I went to a clinic to remove my IUD and to receive a 
gynecological exam. The doctor told me that I had cervical 
erosion, likely due to the poor medical conditions of my forced 
abortions.
    We realize how lucky we are to be in America where there is 
no fear of the Family Planning Commission, and women have the 
choice to keep their babies. Today I am able to tell my story 
for the first time. It is my prayer that the one-child policy 
will come to an end soon and set the Chinese people free from 
this awful oppression. Thank you very much for your time and 
attention.
    [The prepared statement of Ms. Ji follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Ms. Ji, thank you very much for your very brave 
testimony to the subcommittee today. I wish everyone in America 
could hear what you just said. So thank you so very, very much.
    Mr. Fortenberry. Our vice chairman, Jeff Fortenberry, is 
here. Thank you.
    Mr. Fortenberry. Thank you, Mr. Chairman.
    Ms. Ji, let me echo the sentiments of our chairman in 
expressing our heartfelt horror as to what has happened to you, 
but also a heartfelt embrace that you are now welcome in a 
country that is trying to struggle with this issue of 
respecting unborn human life. But at least we haven't slipped 
into this barbaric practice of having families subjected to the 
strong arm of the government coming in and asking them how many 
children that they have; if they have more than one, saying 
that is more than one too many.
    I am deeply grieved by your story, and yet at the same time 
touched by your willingness to come here and share this with 
us. And I agree with the chairman. If you would indulge us 
further with your courage and continue to speak out boldly, you 
will greatly assist those of us who are trying to join in 
solidarity as a human family and say this type of barbaric 
practice must be stopped, it cannot exist in a world that is 
going to call itself civilized, and recognize the reality of 
the pain and difficulty it has caused on people like you.
    So I want to personally thank you for coming and saying 
this in a most courageous way, for your forthrightness, but 
also to give you a warm embrace as a new American in a country 
where we have the chance to stop this type of pernicious 
activity because of our beliefs in the rights and dignity of 
all. We are still living that out imperfectly in our own laws, 
yet at the same time we haven't slipped this far.
    As I was listening to you, I turned my tie over just to see 
if it was made in China or not. And fortunately, it wasn't. But 
I would recommend to all of you, the next time you pick 
something up to buy, look at where it is made. How are we 
indirectly perhaps cooperating in propping up a system that 
does this to its own people in the name of economic progress? 
Economic progress is about persons, not about regimes who are 
going to do this to the citizens of their own country.
    So, Mr. Chairman, I am sorry to interject what is more like 
an opening statement. And I am sorry to take away your time, 
the rest of the witnesses. But I was just simply compelled by 
Ms. Ji's story and wanted to publicly thank you.
    Mr. Smith. Thank you very much, Mr. Vice Chairman.
    We will now recognize Ms. Liu, who I said at the outset was 
compelled, was forced, was coerced into having five abortions. 
And for reasons of protecting her extended family in China, she 
is behind that barrier.
    Ms. Liu.

      STATEMENT OF MS. LIU PING, VICTIM OF FORCED ABORTION

    Ms. Liu. Thank you, Mr. Chairman. And thank you, 
Congressman Fortenberry. I am really honored to be here to have 
the opportunity to testify today before Congress to expose to 
America and the world how the one-child policy in China 
destroys lives and the rights of women.
    My name is Liu Ping. I was born in 1958 in Tianjin, China, 
and arrived in the United States in 1999. Before coming to 
America, I worked in a state-owned textile factory in Tianjin. 
The majority of the workers in the factory were women, many of 
whom were also of reproductive age, so the family planning 
policy was implemented especially strictly. I am just one of 
those many, many women whose lives were destroyed by this 
policy.
    I married my husband in 1981. In September 1983, we gave 
birth to a boy. According to the policy at that time, a woman 
who gave birth was required to implement an IUD, or one of the 
spouses was required to undergo a sterilization operation. At 
that time I had swelling in my right kidney for undiagnosed 
reasons, so doctors refused to implement the IUD in me and 
recommended instead I use other methods for contraception. 
Without the IUD, I became a prime target for surveillance by 
the factory's Family Planning Commission.
    From 1983 to 1990, because of the one-child policy, I had 
to undergo five forced abortions on the following dates: 
September 28, 1984; December 17, 1985; March 20, 1986; May 5, 
1989; and December 14, 1990. All the operations were recorded 
in my medical history. I suffered greatly at the hands of the 
inhumane one-child policy.
    In the 1980s, shortly after implementation of the one-child 
policy in China, there were many severe methods of surveillance 
and punishment to prevent unplanned pregnancies and above-quota 
births. My factory's Family Planning Commission used three 
levels of control: At the factory level, in the factory clinic, 
and on the factory floor. There was a system of collective 
punishment. If one worker violated the rules, all workers would 
be punished. Workers monitored each other. Women of 
reproductive age can account for 60 percent of my factory 
floor. Colleagues were suspicious and hostile to each other 
because of the one-child policy. Two of my pregnancies were 
reported by my colleagues to the Family Planning Commission.
    When discovered, pregnant women would be dragged to undergo 
forced abortions. There was simply no other choice. We had no 
dignity as potential child-bearers. By order of the factory's 
Family Planning Commission, every month during our menstrual 
period, women had to undress in front of the birth-planning 
doctor for examination. If anyone escaped the examination, she 
would be forced to take a pregnancy test at the hospital. We 
were only allowed to collect a salary after it was confirmed 
that we were not pregnant.
    The day of my fifth and last abortion, December 14, 1990, 
was the saddest day of my life. Because I was not able to prove 
that I wasn't pregnant within the 10- to 15-day period, the 
birth-planning doctor in the factory clinic found out about my 
pregnancy. That day officials from the factory's Family 
Planning Commission forced me to be driven to the City Police 
Hospital and forced me to have an abortion in the birth-
planning department. It was my first operation in that 
hospital. All my previous abortions took place in the Central 
City Hospital.
    I did not know what officials in my factory told the 
doctors. After the abortion, the doctors, without my knowledge, 
implanted a metal IUD in my body. When I learned of the 
procedure, I protested that I had a kidney disease and could 
not keep the IUD, but they completely ignored me. The doctor 
just gave the bill to my husband and told him to pay. While my 
husband argued with the doctors, I was recovering in the 
hospital bed. When I left the operating room, still weak, I 
could not find my husband. I was told that he was arrested. I 
collapsed crying from the physical toll of the two operations 
and the emotional shock. A kind nurse tried to comfort me 
somewhat, but she was shooed away by a man who also threatened 
to have me arrested by the police.
    By this time, the family planning officials who dragged me 
to the hospital were nowhere to be found. I felt alone, sick, 
and weak. Afterwards, I learned that my husband had been 
sentenced to criminal detention without a trial for violating 
and obstructing the one-child policy, disturbing the normal 
operations of the hospital, and disturbing social peace. 
Fifteen days later, my husband was finally released and 
returned home.
    I was in great pain from the medical IUD and the weakness 
of the abortion and almost did not want to live. The arrest of 
my husband deprived me of the care of my family. My young child 
did not know what was happening and kept crying for his father. 
I did not know what to do and could only hold my son and cry 
with him.
    Even now, when I think of all this, my heart still breaks, 
and I feel the pain all over again. Those painful 15 days of 
separation became the catalyst of my eventual failed marriage. 
My body suffered great damage from all those five forced 
abortions. I gradually grew afraid of family life with my 
husband. I tried to find excuses to refuse any intimacy demands 
from my husband. I grew to hate him after the IUD was inserted 
because I blamed my sufferings on him, on his unwillingness to 
be surgically sterilized. He had known of my kidney disease, 
but would not make any sacrifice for me, and, therefore, he 
didn't love me.
    After the fifth abortion and the IUD insertion, my factory 
also gave me a serious administrative warning and fined me 6 
months wages. Afterwards I had to go to the factory clinic 
every month for exams to make certain that I had not privately 
taken out the IUD nor became pregnant again. I carried this IUD 
in my body for over a decade before I finally came to America.
    My husband's detention accelerated the demise of our 
marriage. He was suspended from his job and forced to write 
letters of regret, and then eventually fired from his job in 
1991. Our family immediately sunk into financial difficulties. 
Arguments and fights became a common thing every day. I was 
laid off at the end of 1995.
    As I was still considered of reproductive age, the Family 
Planning Commission of my neighborhood committee took up the 
job of monitoring me. In early 1997, I spent 40 days taking 
care of my terminally ill and dying mother and missed the 
monthly pregnancy check. Agents from the Family Planning 
Commission waited at my home to drag me to the exam. When they 
pushed me to the ground, I fell and hurt my neck vertebrae. My 
spirit completely collapsed after this one. I attempted 
suicide, but was stopped by my family from jumping.
    With the help of old friends, in 1999, I escaped the 
country that humiliated me and tormented me and came to the 
free soil of America. My husband came to the U.S. a year later. 
We were unable to mend our past grievances and divorced in 
2001. I became extremely depressed and suffered severe 
depression after the divorce, but at the suggestion of my 
friends, I started attending church, where I felt the warmth of 
Christ's body. The Lord Jesus led me to give up the bitterness 
in my heart piece by piece.
    In 2009, my neck injury flared up again. My ex-husband came 
to take care of me and eventually joined with me. After I was 
baptized last year, our marriage was able to be reconciled 
again. Now I live in the great family of Christ in the free 
land of America. I feel happiness and joyful. But I know in my 
homeland, China, there are millions of women who are suffering, 
as I did. Each day thousands of young lives are being 
destroyed. I beg everyone to save them. I invite all to join 
with me in prayers for them.
    Let the love of our Heavenly Father, the grace of our Lord 
Jesus and the Holy Spirit fill their hearts and free them from 
the hell they are living on earth. In the name of our Lord 
Jesus, we pray. Amen. Thank you.
    [The prepared statement of Ms. Liu follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Thank you very much as well for your very 
courageous testimony and for the reconciliation and peace you 
have found with God. Unfortunately, that peace evades a huge 
majority of women in China, and the victims' toll obviously 
continues by the hour, not just by the day.
    I would like to ask our three additional and very 
distinguished witnesses if they would present their testimony, 
beginning first with Dr. Valerie Hudson, who is a professor of 
political science at Brigham Young University, having 
previously taught at Northwestern and Rutgers.
    Her research includes foreign policy analysis, maturity 
studies, gender and international relations, and methodology. 
She is the author or editor of several books and coauthored 
``Bare Branches: The Security Implications of Asia's Surplus 
Male Population.''
    Dr. Hudson was named to the list of Foreign Policy 
Magazine's top 100 global thinkers for 2009, and Dr. Hudson is 
one of the principal investigators of WomenStats Project, which 
includes the largest compilation of data on the status of women 
in the world today.
    We will then hear from Ms. Chai Ling, who is the founder of 
All Girls Allowed, an organization dedicated to restoring life, 
value and dignity to girls and mothers, and revealing the 
injustice of China's one-child-per-couple policy.
    Ms. Chai Ling has established the Jenzabar Foundation and 
serves on its board of directors. The foundation supports the 
most inspirational and influential humanitarian efforts of 
students through grant opportunities. We all remember her as 
the key student leader in the 1989 Tiananmen Square movement. 
She was one of the most wanted by the Chinese dictatorship. She 
was subsequently named Glamour Magazine's Woman of the Year and 
nominated twice for the Nobel Peace Prize, and has just 
published a very incisive book that I hope members will read, 
as well as the general public.
    Finally, we will hear from Ms. Reggie Littlejohn, the 
president and founder of Women's Rights Without Frontiers, an 
international coalition that opposes forced abortion, 
gendercide and sex slavery in China. She has legally 
represented Chinese refugees in their political asylum cases in 
the United States. Ms. Littlejohn has briefed the White House, 
testified before the European and British Parliaments as well 
as Congress on China's one-child-per-couple policy.
    She serves as an expert on the policy for the China AIDS 
Foundation and Human Rights Without Frontiers. She has issued 
several groundbreaking reports about the incalculable suffering 
caused by coercive enforcement of the one-child policy, 
including a report that she releases today.
    Dr. Hudson, please proceed.

  STATEMENT OF VALERIE HUDSON, PH.D, PROFESSOR, DEPARTMENT OF 
          POLITICAL SCIENCE, BRIGHAM YOUNG UNIVERSITY

    Ms. Hudson. Mr. Chairman, I will summarize my remarks and 
ask that my complete written statement be included in the 
record.
    Mr. Smith. Without objection, so ordered.
    Ms. Hudson. Mr. Chairman, Mr. Fortenberry and other members 
of the subcommittee, I am grateful that you are holding this 
hearing. I think this is a crucially important topic and one 
that should receive greater attention from U.S. policymakers. 
So I applaud your efforts in this regard.
    I have been very moved by the two testimonies that have 
preceded mine, and I feel honored to sit next to Reggie 
Littlejohn and Chai Ling, knowing of their great efforts in 
this area.
    China's one-child policy, the policy was first announced in 
1978, that was 33 years ago, and Chinese authorities claim it 
has prevented approximately 400 million births from 1979 to 
2011. While the official position of the Chinese Government is 
that the policy will remain in place until at least 2016, there 
are rumors that fines and punishments for having a second child 
for those couples who are not entitled to a second child may in 
the future no longer be enforced. We will see.
    Nevertheless, it is apparent that the Chinese Government 
may be rethinking the wisdom of the one-child policy in light 
of current national security concerns. As a security studies 
specialist, my remarks will focus on the effects of China's 
one-child policy on the national security of that nation. My 
argument will be that the one-child policy has not enhanced 
China's security, but demonstrably weakened it.
    As Nick Eberstadt has famously phrased it, what are the 
consequences for a society that has chosen to become 
simultaneously both more gray and more male, for that is 
indisputably what the Chinese Government has chosen by 
implementing the one-child policy.
    The ratio of elderly persons to current workers is 
plummeting from 5.4 in 2009 to a projected 2.5 in 2030 and 1.6 
in 2050, according to CSIS, at the same time that the birth sex 
ratio has risen officially to over 118 boy babies born for 
every 100 girl babies in China today, and may, in fact, be as 
high as 122 or more. We know indeed that in certain areas of 
China, the birth sex ratio is approaching 140 boy babies for 
every 100 girl babies. It is time to ask whether the one-child 
policy has undermined China's ability to sustain itself as a 
stable and prospering society.
    Now, I am sure you are aware that some have argued that the 
altered sex ratios we have seen are merely an artifact of 
underreporting of girls, while others have suggested that 
factors like hepatitis B antigens are playing a role. However, 
I believe these views are either naive or erroneous. I think 
the two testimonies that we have already heard tell us 
something about what is going on, especially as related to the 
sex of fetuses.
    I think it is also interesting, for example, to note the 
experience of the municipality of Shenzhen in southern China. 
Alarmed at their rising birth sex ratio, which reached 118 9 
years ago, local officials instituted a strict crackdown on 
black market ultrasound clinics to detect the presence of 
female fetuses. Offering 200 yuan for tips as to where these 
clinics could be found, officials then vigorously prosecuted 
owners of the machines and technicians using them with prison 
terms affixed. Two years later, the birth sex ratio had fallen 
to 108, near normal.
    So I think it is fair to say that accounts such as these 
provide support for the thesis that the modern gender imbalance 
in China is largely man-made. Girls are being culled from the 
population, rather through prenatal sex identification and 
female sex selective abortion, or through relative neglect 
compared to male offspring in early childhood, or through 
desperate life circumstances that might result in suicide, as 
the chairman has noted. The gender imbalance in Asia is 
primarily the result of son preference and the profound 
devaluation of female life.
    Now, the other face of the coin for the missing daughters 
of China are the excess sons of China. For every daughter 
culled from the population, a son will become surplus, or, in 
colloquial Chinese, a bare branch on the family tree. Our own 
estimates were that by 2020, the number of young adult bare 
branches would number in excess of 30 million. As noted by the 
chairman, the Chinese Government's estimates are between 40-, 
and now I have heard 50 million, in 2020, looking at close to 1 
in 5 young adult Chinese men.
    No society has ever had to cope with the sheer numbers 
being produced by the Chinese one-child policy of bare 
branches. And the percentage of boys that are surplus within 
their population increases in lockstep according to the year in 
which they were born. That is, there is a higher percentage of 
surplus sons in the 1986 birth population than there was in 
1985, and more in 1987 than 1986, and so forth and so on. That 
is, the birth sex ratio has continued to climb despite efforts 
by the Chinese Government.
    It is important to understand which young men become the 
bare branches who will have little chance of marrying in their 
society and establishing a family. Well-off young men with 
education, skills, money, looks or some combination thereof 
will marry. It is the young men without advantages, those who 
are poor, unskilled, illiterate, who will find themselves 
without the ability to form families. The men at these lower 
socioeconomic levels already feel disenfranchised from 
established society. Their inability to form a family will 
deepen their aggrievement with the existing social order.
    The foremost repercussions that we have found in our study 
are increased societal instability marked by increases in 
crime, violent crime, crimes against women, substance abuse, 
and, as noted by the chairman, the formation of gangs that are 
involved in profiting from all of these behaviors. Unattached 
young adult males are several times more likely to engage in 
these types of behavior than attached young adult males. And 
they tend to congregate, and when they do, their behavior as a 
group is more antisocial than the behavior of each individual 
would be by himself.
    These empirical findings toll not just for China, but 
across nationally. We have detailed numerous historical cases 
in both China, in India and in other lands in Asia where 
abnormal sex ratios lead to domestic instability and conflict 
between national and regionally based coalitions of bare 
branches.
    What I would like now to look at is the broader 
ramifications of these trends. I suggest that when we step back 
and take a larger perspective, when we look at the phenomenon 
of global aging, as well as China's aging, the likely economic 
effect of aging, and we combine that with the analysis of the 
effects of abnormal sex ratios on a society, the synergistic 
effects of these trends are likely to be quite dangerous for 
the Chinese Government.
    In addition to the current economic woes that we are all 
experiencing, economists predict there will also come an 
economic slowdown in the coming decades due to the aging of the 
most advanced economies. This global slow down is likely to 
amplify the economic storm clouds already looming for China. A 
society with a masculinized young adult population such as 
China's is likely to respond to their coming significant 
economic hardship, which makes the pale effects of the current 
economic recession on China very dilute by comparison. I 
believe that China is likely to respond--this society will 
likely respond with severe domestic instability and crime.
    The Chinese regime will be hard-pressed to maintain its 
usual control over society as a result and will likely become 
more authoritarian as time goes on to meet this internal 
security challenge.
    It may well be that the Chinese Government could play upon 
nationalist themes to maintain power in the context of an aging 
yet more masculine society experiencing a profound economic 
slowdown. The government could use, say, anti-Japanese or anti-
Taiwan independence themes to galvanize not only the elderly 
generation, but, more importantly, the young adult generation 
which is highly masculinized.
    Masculine societies are very susceptible to political 
campaigns stressing national pride vis-a-vis a competing 
nation. But masculine societies are a double-edged sword in 
this also, for if the government is perceived as weak or as 
unsuccessful in these contests of national pride, it will be 
very vulnerable to internal dissension that would bring a 
stronger government to power.
    In sum then, from all that we have analyzed to this point, 
the abnormal sex ratios of China as well as its increased 
aging, both due to the one-child policy, does not bode well for 
its future. Even if the sex ratios were somehow magically 
rectified today, which they certainly will not be, young adult 
sex ratios in China will result in a significant percentage of 
bare branches for at least the next 30 years. And economists 
tell us it is around the year 2020 that China will enter a 
crucial period.
    In 2020, China will still be adding workers to its 
population before the downturn in its working population hits 
around 2030, while the richest nations of the world fade from 
global dominion due to aging. A lingering economic slowdown 
plus the opportunities afforded by the fading of the West and 
Japan, will create a unique crucible for a possible dramatic 
change in China's security situation.
    Now, while it is true that the demographic die has been 
cast for the next few decades in China, it is also true that 
relinquishing the one-child policy would positively affect 
China's future prospects for stability, security and 
prosperity. That the Chinese Government is now pondering 
whether to turn to a de facto two-child policy is an 
interesting development, indicating that the government now 
sees more clearly the security issues the one-child policy has 
raised.
    Even so, steering the ship of culture to a new heading will 
be a very difficult undertaking. In experiments performed by 
the government in selected areas, institution of a two-child 
policy did not change the fertility rate, and it did not change 
the sex ratio of the births.
    On the basis of these experimental findings, we are now 
forced to wonder whether the one-child policy will have 
significant cultural effects and demographic effects that will 
long outlast the policy itself. If that is the case, that will 
be truly a tragedy for China.
    Thank you very much.
    [The prepared statement of Ms. Hudson follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Thank you so much for your testimony and for 
flying from Salt Lake City to be here. I know you are going 
right back today. We deeply appreciate that inconvenience to 
your schedule.
    Ms. Hudson. It was an honor to be here.
    Mr. Smith. Thank you so very much, and for the issues you 
raised that, frankly, have not been raised by many people 
anywhere, and certainly not with the analysis and the 
scholarship that you and your colleague have brought to this 
issue. And I hope the Pentagon, I hope the Commerce Department, 
the State Department--and I will ask you questions later 
whether or not they have reacted to any of this, because the 
way I look at it, they seem to be tone deaf to the information 
that you have raised. So thank you so very, very much.
    I would now like to ask Chai Ling, Ms. Chai, if she would 
present her testimony.

     STATEMENT OF MS. CHAI LING, FOUNDER, ALL GIRLS ALLOWED

    Ms. Chai. Chairman Smith, Congressman Fortenberry and 
members of the committee, thank you for giving me this 
opportunity to testify about this massive problem in hope and 
determination that one day it will come to an end. I am honored 
to be here with you, with Reggie, and Valerie I just got to 
know, and the other two distinguished witnesses.
    Without, Chairman Smith, your persistent effort to battle 
on behalf of women and children in China, a hearing in November 
2009, and the bold witness of Reggie, I would not be here to be 
able to continue this work. So thank you. I am very grateful.
    As we are here to report and mourn for the loss of 400-plus 
million lives that have been taken from China since 1980 under 
China's one-child policy, it only came to full realization 
recently to me as I was finishing my memoir that three of those 
babies were mine. And the reason why the one-child policy 
killed millions of infants and unborn children annually is 
because it is a one-child-per-couple policy. It is, in effect, 
an ``all the other children must die'' policy. That means most 
married couples are not allowed to have more than one child, 
and, of course, unmarried women in China are not allowed to 
have babies at all.
    There are 16 million forced and coerced abortions a year in 
China, but when counting on the numbers of abortion pills sold, 
possibly close to 23 million. According to the Chinese 
Government's own statement, more than 70 percent of these women 
are by those who are unmarried. That means more than 10 million 
young women suffer this fate every year, up to 27,000 every 
day, 19 every minute. I want to call your attention to that--to 
the poster of the young lady who is hiding her face in the IV. 
In seeing her face, I saw myself many, many years ago.
    The tragic equation for millions of unmarried women, 
especially those too young to wed, is no marriage certificate, 
no birth permit; no birth permit, no baby.
    The first time I became pregnant, I was 18 years old, a 
sophomore at Peking University. I was terrified and deeply 
ashamed. All I could think was a scene I saw. A young couple 
when I first arrived at Peking University was being expelled in 
front of all of us freshman because she was found to be in love 
and pregnant. The thought of being taken out of school, which 
represented life, future, jobs and positions in society, was 
unthinkable.
    My father, who was an army doctor himself, took me in 
secret to the neighboring city clinic to end that pregnancy. 
The surgery was performed on a cold operating table with no 
anesthesia. It was extremely painful. We both took the bus back 
home without saying a word to each other. We never talked about 
it until very recently when he read my book.
    In my book I tell at length how my forced abortion 
experiences were the combination of the law requiring an 
abortion if you are not married and the pressure of the never-
told part of the culture and the society, and the value of the 
family, and the shame--all these gave a young woman like myself 
no choice.
    The second time I became pregnant, it was my boyfriend's 
father who took me to the clinic. But by the third time I was 
pregnant, I was in graduate school with my soon-to-be husband. 
But even if you were married, you must abort unless you had a 
birth permit, and we couldn't get married until we had a 
combined age of 48. Our combined age was 44.
    This time I walked in with him to a clinic in Beijing 
without help, nor informing any of our parents. Only after that 
surgery we realized that we could have actually faked our age 
to get a marriage certificate. We regret that we did not think 
of that earlier. We did get married shortly, but the baby was 
gone, and this was the way it worked in China.
    Similarly, in my life I now see it was all threaded 
together, starting with Deng Xiaoping in 1978, who decided to 
order the one-child policy. In addition to all of these forced 
abortions, forced gendercide against baby girls, the policy led 
to the university to expel young couples who were in love and 
pregnant, and it led to my father and my boyfriend's father 
taking me to end my pregnancies, and then led to the third time 
I was pregnant, I knew what to do and where to go.
    But it did not stop there. Now, worse yet, by the fourth 
time when I was pregnant, I already became the most wanted 
criminal of China and came to Paris in 1990. I came to the land 
of freedom, but I was alone and in a very bad place in my 
marriage. With the advice of a Chinese couple who loved very 
much their own child, I still did what I was taught to do: End 
that pregnancy, too.
    So when I came to America in 1990 to testify about China's 
human rights abuses, Chairman Smith, you asked me during the 
hearing whether I knew of China's forced abortion one-child 
policy or not. I assumed the world knew and asked in return, 
``Doesn't everybody know about it?'' Even at that time I did 
not make the connection between my own experience and whether 
it had anything to do with that policy. But, in fact, it is an 
insidious policy that causes society to immediately demand an 
abortion for any woman without a birth permit, married or not. 
To refuse would be illegal. But most unmarried women like me 
did not even dare to ask. I certainly did not tell anybody 
about it, but simply silently suffered the shame and tried to 
hide the secret. That is why in my country there is such a high 
female suicide rate, 500 women a day.
    Until December 2010, when I was speaking to an American 
teacher about his visit to Beijing to teach the development of 
pregnancies, I first saw the small, but well-formed, tiny 
babies at 8 weeks, 10 weeks, 12 weeks. Tears started streaming 
down my face. It was at that moment I realized four of my 
little babies, not just pregnancies, were sent to the grinding 
tubes and turned into these pink foams; four little lives 
snuffed out by the government and the society that did not 
value life and did not think twice about all these abortions 
every year. In the capital city of Beijing, there are more 
abortions than live births to this very day, according to a 
report by the Chinese Academy of Social Science.
    As much as I thought all along I was a freedom fighter 
trying to bring freedom to China and trying to save lives, I 
did not realize how much I was turned into the same sinful 
being as Chinese leaders like Deng Xiaoping and those who are 
enforcing the one-child policy today. And how blind I was. Even 
when I reached Paris, even though I was no longer under the 
threat of being thrown out of my school after I was already 
thrown out of my country, even though I was married and no 
longer had to hide the pregnancy in shame, I still did the only 
thing I knew what to do: Terminate that pregnancy. But by then 
I was long trained to think and act as if abortion were the way 
of life. There were no other choices.
    To be completely truthful about the situation, you hope to 
bring light on what must be done to change for the future. I 
want to share that at that time, there was never any discussion 
that might have offered us another choice. There was not a 
movie like Juno playing in China, teaching us we could give the 
baby away. There were no examples like the young couple I met 
at Harvard Business School, who got pregnant at an American 
university and simply took a year off, got married, gave birth 
to the baby, and came back to graduate and still are having a 
great career. There was never anyone to inform me or pray with 
me on my way to the forced and coerced abortion clinics, 
whether in Shandong or in Beijing or in Paris, to tell us that 
we could save the baby's life, we could turn our spirit of 
despair into hope. And this is why, to this day, China is where 
the majority of the world's abortions are taking place every 
year.
    Now I see how that one idea, one-child-per-family, was born 
to our leader, unchallenged and unstopped in a totalitarian 
system. Overnight it created more than 400,000 paid and brutal 
enforcers, helped by millions of parents of these unmarried 
women, volunteers--I mean, the parents are volunteers--and the 
tough in-laws who demand the mother to try to give birth to a 
baby boy at the expense of baby girls. That led to a society 
with the problems Dr. Hudson mentioned and this massive gender 
imbalance, this massive sex trafficking.
    And it is not only just one person's sin, but a whole 
army's sin, everybody in that society, including those who try 
to overcome it. And that violence does not just end on the 
forced abortion table, it extends to the sex slave trafficked 
for sex slavery or child-trafficking families. It continues in 
every single family.
    And it is a shock to me when I read the other two 
testimonies how each one of us all ended up with a broken 
marriage. And today, according to China's All Women's 
Federation and their survey, one-third of families suffer 
domestic abuse every single day. That is a glimpse of a picture 
of what China is becoming, its killing and violence every 
single day in every part and corner of the society.
    So that leads to the question of what we must do now to end 
the killing and restore peace. It is for this reason I choose 
to support the bill, H.R. 2121. Once passed, the bill would 
give the President of the United States authority to deny entry 
into the U.S. for any Chinese officials enforcing forced 
abortions and sterilizations on unwilling women in China, an 
act that would be a clear crime in this country. Today these 
criminals would be given visas here in the United States and 
enjoy this great country. H.R. 2121 would also apply to family 
members of these officials.
    This is no small matter. Just as I shared a very personal 
story today, this bill would become very personal to the 
leaders of China. One hundred thirty thousand Chinese students 
studied in America last year, up 30 percent compared to the 
year before. A majority of them came from well-to-do families, 
sons and daughters of officials of China. It is as if they are 
sensing the coming of the inevitable days of consequences and 
judgment. It is very likely they won't like it, and they will 
oppose it and possibly even threaten retaliation. But how else 
could we get their attention to listen?
    If we do have their attention to listen, I would like them 
to know the truth, the truth I came to know, which is how much 
God loves us, for He loves the leaders of China and the people 
of China and the nation of China so much, He gave His one and 
only son, so whoever comes to know Jesus will be saved and be 
given eternal life, but those who refuse to know him will 
perish.
    I am not testifying today against all the people, the 
leaders of China, as Chai Ling, the human rights fighter, but 
rather as an equal sinner with you. I can tell you with peace 
and in confidence that the same spiritual transformation that 
led me to know Jesus and to gain the freedom he has given to me 
through his own suffering is also available to all the people 
in China. I know through us we cannot make it come to an end, 
but we know that through the most almighty God all things are 
possible.
    So I am concluding my testimony in peace and in hope and 
belief that China and its people will be set free, and will be 
set free soon.
    Thank you.
    [The prepared statement of Ms. Chai follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Thank you very much, Ms. Chai. To love and to 
wish well and reconciliation on those who have so abused you 
and the women of China is truly miraculous. So thank you for 
that witness.
    Ms. Chai. You are very welcome.
    Mr. Smith. Ms. Littlejohn.

  STATEMENT OF MS. REGGIE LITTLEJOHN, FOUNDER AND PRESIDENT, 
                WOMEN'S RIGHTS WITHOUT FRONTIERS

    Ms. Littlejohn. Mr. Chairman, Representative Fortenberry, 
honorable members of the subcommittee, I am grateful for this 
opportunity to testify and for the fact that we can even talk 
about these things in the United States. Basically every single 
thing that has been said so far in this hearing would be 
considered to be a state secret in China, and all of us would 
be detained. And so I am grateful to this committee and this 
Nation that we can speak out. And, in fact, people like Chen 
Guangcheng, when they try to speak out, end up in the 
deplorable conditions which I will describe later on, but 
because we have the ability to speak out, I feel that we have 
the moral obligation to speak out.
    I have been asked to brief the subcommittee on the findings 
of our new report, to testify regarding the impact of coercive 
enforcement of China's one-child policy on human rights, and to 
comment on the case of Chen Guangcheng.
    So, this is our new report on the one-child policy. It is 
released today. It is called ``China's One-Child Policy: New 
Evidence of Coercion--Forced Abortion, Sterilization, 
Contraception, and the Practice of Implication,'' which is 
something I learned about in researching this report.
    Mr. Smith. Without objection, your report will be made part 
of the record.
    Ms. Littlejohn. I hope it will be. I heard is it is a 
little long to be made. But I thank you, Mr. Chairman.
    In this report are 13 new documented cases that are just as 
grievous as the cases that we have heard today. In this report 
we have cases of forced abortion, one woman at 8 months, 
another woman forcibly aborted with twins at 8\1/2\ months; 
forced sterilization; forced contraception. And these forced 
contraceptions are not simply the installation of IUDs, which 
can be very painful, and even, as the witnesses have said 
today, these IUDs can be installed even though there are 
medical complications that contraindicate such an installation. 
But people--the lack of an IUD is used as an excuse for family 
planning cadres to come in and maim people. I have got a case 
in here where somebody's mother-in-law literally had her hand 
almost broken in half because her daughter-in-law supposedly 
didn't have an IUD.
    We have got pictures of family planning police. It looks 
like a military regiment; family planning jail cells; the 
demolition of homes, even by relatives. There is a woman here 
who missed a pregnancy check, and her own relatives were forced 
to demolish her home. We have pictures of that.
    This report also contains accounts of a couple who were 
brutally tortured because the woman missed a pregnancy check by 
one day. She was one day late. A man whose head was smashed 
open and who is now permanently disabled because his wife had a 
second child. I will show this briefly. But this report is 
filled with photographs like this. And a father who was beaten 
to death because his son was suspected of having a second 
child.
    Now, we went back and forth on this, and finally we did 
choose to release the names of the perpetrators of these 
crimes. So this report has at least several dozen names of the 
actual human beings who perpetrated these crimes, what they 
did, what their position was at that time. They are 
identifiable. And I did this in consultation with China Aid. I 
want to thank China Aid for their substantial contribution to 
this report. But basically these people need to be held 
accountable.
    Again, Representative Smith, you have sponsored the China 
Democracy Promotion Act of 2011, which, if passed, people such 
as these people who have gone around doing heinous crimes 
against humanity will not be allowed free access to American 
soil.
    Human rights violations. In addition to forced abortion, 
gendercide and female suicide, China's one-child policy gives 
rise to several other serious human rights violations. Number 
one, human trafficking and sexual slavery. Because of the 
abortion, abandonment and infanticide of baby girls, there are 
an estimated 37 million more Chinese men than there are women. 
This gender imbalance caused by gendercide is perhaps the 
driving force behind human trafficking and sexual slavery in 
China. And according to the 2011 TIP Report, the Trafficking in 
Persons Report, women and children from neighboring countries, 
including Burma, Vietnam, Laos, Mongolia, Russia and North 
Korea, and from locations as far as Romania and Zimbabwe, are 
reportedly trafficked into China for commercial sexual 
exploitation and forced labor.
    Women's Rights Without Frontiers has a petition against 
forced abortion and sexual slavery in China, and we have 
printed out the signatories here. We have more than 9,000 from 
80 countries. So this is a genuinely international outcry.
    Infanticide. Last year, crematorium workers in Guangdong 
Province found an infant crying in a medical waste receptacle 
on the way to the crematorium. When they opened it, they found 
a little baby boy who had cotton stuffed down his throat. 
Horrified, they sent that baby boy back to the hospital, 
perfectly healthy, and then that boy was returned to them later 
that day without any explanation of the cause of death.
    In a separate incident, Xinhua reported that 21 bodies of 
fetuses and babies were found discarded in a river in east 
China last year. Xinhua News stated, ``The bodies may have been 
dumped by cleaners from local hospitals after abortions and 
induced labor. Such dead bodies are treated as medical waste by 
hospitals.''
    Forced sterilization. The first case in my new report is of 
a woman who was literally running away from a forced 
sterilization and was grabbed and dragged back to the hospital. 
These forced sterilizations are not done by highly trained 
gynecological surgeons. They are done under horrible 
conditions. Women frequently get massive infections, and it 
ruins their health for the rest their lives.
    So I asked organizations like UNFPA and International 
Planned Parenthood, if they truly stand for choice, if they 
truly stand for women's reproductive rights and women's 
reproductive health, how come they aren't jumping up and down 
about forced sterilization in China?
    For example, there was a 20-day campaign launched April 7th 
of 2010 in Puning City, Guandong Province, aimed to sterilize 
9,559 people, and they detained 1,300 people in that forced 
sterilization campaign. That campaign was publicized in the 
London Times. Everybody knew about it. Where was UNFPA? Where 
was IPPF when this was going on, if they truly are promoting 
voluntarism in China?
    Implication. Now, that is something new that I learned in 
researching this report. The practice of implication means if 
one person is a violator of the one-child policy, then their 
entire extended family is implicated or punished. So, for 
example, if I were illegally pregnant, my husband, my parents, 
his parents, our grandparents, our aunts, uncles, nieces, 
nephews, the entire extended family can have their homes 
destroyed. In this one incident, case 12 in Fujian Province, 
family planning officials beat a father to death on the 
suspicion that his son might have a second child. That is 
implication.
    Then in another case, the extended family were all dragged 
in to something called the Family Planning Learning Center, and 
they were tortured for days on end, and then they were charged 
tuition, which also brings up the issue of corruption, which I 
think is a major driving force behind keeping the one-child 
policy in place. People are making a lot of money off of this.
    Another thing that has come to the forefront to me, we all 
know that China's one-child policy causes more violence toward 
women and girls than any other official policy on Earth or any 
other official policy in the world. But you know what? China's 
one-child policy also causes tremendous violence against men, 
and that comes out in this report. It is through the 
implication that this occurs.
    Recently, just this year in Linyi County, there was a man 
who was murdered by family planning police. They had come to 
seize his sister for a forced abortion. She wasn't home, so 
they started beating his father. So when he tried to defend his 
father, one of the family planning officials just took a knife 
and stabbed him in the chest, and he died. And these things 
happen with impunity. People are not prosecuted. They are not 
held accountable. I would say that really the spirit of the Red 
Guard lives on in the family planning police.
    Chen Guangcheng. Blind activist Chen Guangcheng was 
arrested in 2006 for exposing the fact that there were 130,000 
forced abortions and forced sterilizations in just one county, 
Linyi County, and Ji Yeqing, who just testified, was just 1 of 
those 130,000. So the suffering that was caused by this is just 
incalculable. He was named by Time Magazine as one of 2006's 
top 100 people who shape our world, and was also nominated for 
the Nobel Peace Prize.
    As you know, for his activism against forced abortion in 
China, he then was imprisoned 4 years, 3 months, jailed, 
tortured, denied medical treatment, and also got an intestinal 
condition in the jail. And when he was released in September 
2010, he and his wife were again beaten and tortured and denied 
medical treatment when they got a video out about the 
conditions of their house arrest.
    Now, the latest on him is, as you know, they turned 
basically not only his home, but the entire village into a 
prison. So around his home there are 22 cadres every 8 hours, 
66 cadres every 24 hours, just watching him, making sure nobody 
goes in, nobody comes out. He is completely sealed off from the 
world. But according to several Radio Free Asia reports, number 
one, they built like a separate prison for him that they are 
going to move him to; number two, his 6-year-old daughter has 
been denied an education; and, number three, his brother has 
been detained as well, and there is a group of activists who 
tried to visit him just this past week who were beaten and 
detained.
    So Bob Fu of the China Aid Association and Women's Rights 
Without Frontiers are spearheading an effort to free Chen 
Guangcheng. We already have over 5,000 signatures from a couple 
dozen countries to free him. And he is being starved; he is 
sick; he is beaten, tortured, denied medical treatment. His 
wife was able to get a letter out a couple months ago about his 
condition, saying that she was worried he wasn't going to 
survive. We haven't heard anything from them since then, other 
than the fact they are going to be put into their own personal 
prison. But it is absolutely urgent that Chen Guangcheng be 
freed.
    Now, I just want to make one comment about China possibly 
moving to a two-child policy. I have heard people--nobody here, 
but people say, well, wouldn't it be okay if they had a two-
child policy? My answer is no, for several reasons.
    Number one, already much of the country can have a second 
child. In the countryside, if your first child is a girl, you 
can try for a boy on your second child. And what that has done 
is it has given rise to gendercide. The worst gender imbalances 
happen when the couple has a girl as the first child, and then 
they try for a boy on the second child. There are many areas of 
China where that ratio is 160 boys born to 100 girls born. So I 
don't think that saying, oh, everything will be solved if they 
have a second child.
    Secondly, for me, the cornerstone of the one-child policy 
is not how many children are allowed, is it one child, is it 
two children. It is, number one, the fact that the government 
is imposing its will on something that should be a family 
decision; and, number two, the coercion with which it is 
enforced.
    In China, a woman's body is not her own. It is in the 
domain of the state. And until the Chinese family planning 
officials stop functioning as womb police, the nation of China 
will not be free.
    Thank you.
    [The prepared statement of Ms. Littlejohn follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Ms. Littlejohn, thank you so much. Thank you for 
your report, and for the accuracy and the detail and the 
earnestness that you bring to this, and for your legal 
representation of those women who have been so cruelly 
mistreated by the Chinese Government.
    I have so many questions, but let me just begin with a few. 
When the U.S. Department of State under John Negroponte, who 
was then the point person for the Bush administration, made its 
finding, there were a number of very important aspects to that 
finding with regards to international complicity in these 
crimes against women and children. And one of those was that 
programming by NGOs and by regional groups out of the UNFPA in 
China is always in the context of Chinese law. They follow 
Chinese law.
    When we hear about the so-called choice offered to women in 
those areas, those counties where the UNFPA has a presence, the 
only choice is what method may be adopted, what type of 
contraceptive, IUD or some other means. But with resoluteness, 
to use the word of the Chinese system, women are still held to 
one child, they are coerced to abort, and they are coerced to 
have--whether it be an IUD or some other means.
    I am amazed to this day how even the Washington Post, when 
it did a big story about how the UNFPA and China itself is 
offering more choice, failed to see that the coercive elements 
are as harsh and as brutal as ever, just choose your poison. 
There is no choice for the individual woman.
    They also point out, and I think this is important, the 
2000 law--this is the finding that was done pursuant to the 
Kemp-Kasten language--is not just about harsh controlling of 
the size of the population, but to improve its quality. And 
when that law went into effect, I asked the Holocaust Museum 
their view and analysis of this eugenics policy, and they said 
it comported with what the Nazis did, trying to make a better 
Chinese man and woman by weeding out the undesirables. 
Unfortunately, the UNFPA and others are completely complicit in 
ensuring that those who might have some disability do not see 
the light of day and are not born.
    Any comments you might have on that, I would appreciate 
that.
    The two women, Ms. Ji and Ms. Liu, who spoke, the idea that 
the factory--and anyone who would like to comment on this--
actually as far as back as Michael Weiskopf's incisive three-
part series in the mid-1980s in the Washington Post, the former 
bureau chief for the Washington Post, he wrote those articles 
as he was leaving, talked about how this is implemented at the 
factory level; that women are subjected to very degrading 
inspections, their menstrual cycles are monitored, and if they 
are found to be pregnant without a birth allowed certificate, 
they are then forcibly aborted.
    If you could speak to factories and whether or not U.S. 
companies, which have a huge factory presence in China, might 
be involved in this as well. Are they part of the factory 
clinic or on the factory floor?
    Ms. Liu talked about how she was reported by her coworkers 
to be pregnant. We have U.S. factories there. Are reportings 
going on about illegal children, and are they forcibly aborted?
    Dr. Hudson, you talked about the coming economic hardship 
in China. Dr. Eberstadt did testify recently at a hearing I 
chaired, and he talked about this huge disproportionality of 
not just missing girls and women, as you call it the missing 
daughters, but also about this heavily skewed senior 
population. I have never seen this on CNBC; I have never seen 
any analysis by the Fed or anyone else about this sinkhole of 
economic progress coming to a grinding halt in China. And yet, 
as I think you have indicated, it is right around the corner.
    Dr. Hudson, could you answer the question, has our 
Pentagon--has there been any interest shown anywhere, the Army 
War College, about the grave implications for potential war? As 
you said in your testimony, and you said it so eloquently, if I 
can just find it, on the last page, and that is, might a 
situation develop where the government sees a way to kill two 
birds with one stone, seizing a greater share of international 
power through successful international use of force, while also 
thinning the ranks of the bare branches through attrition or 
warfare?
    That is a profound statement. Who is listening to that at 
the Pentagon, at the United Nations, for example, or anywhere 
else? I am going to ask the Armed Services Committee to hold a 
hearing on these implications. This is something that is 
present today, but only gets exacerbated as the days move 
forward.
    So, Dr. Hudson, maybe you could speak to that. I have many 
other questions, but as some opening questions.
    Before you do, I would like to also just get on the record, 
I do believe that population control has turned out to be a 
weapon of mass destruction. More children, more women, more 
persons have died as a direct result of that, and it could 
happen here.
    Ted Turner recently said that we need in America, the 
United States, to adopt a one-child-per-couple policy. A man 
from Planned Parenthood wrote--and I have a copy of what he 
said, where he said, let me just get it--a couple of weeks ago, 
Executive Vice President Norman Fleishman: ``China's `one 
child' policy . . . is a start . . . the world is doomed to 
strangle among the coils of pitiless exponential growth.'' Ted 
Turner has said it and said it repeatedly. And on the IPPF Web 
site, the International Planned Parenthood Web site, the Kenyan 
Planning Permanent Secretary Edward Sambili said, ``We might be 
forced to halt the free primary education programme because 
some parents are exploiting it by getting many children . . 
.''. Then he even says maybe we ought to look at food as well 
as something that might be deprived. All coming out of China.
    So, Dr. Hudson.
    Ms. Hudson. Wow, I find that very interesting. There are 
some cultural winds blowing through the West that do bear some 
uncanny echoes with this notion that the government has a role 
in limiting birth, and so I am not going to dismiss that in the 
least.
    For example, I remember once at an academic conference 
asking whether it would be possible for the United States to 
outlaw sex-selective abortion. There is a bit of a problem, 
yes, but there isn't a huge problem at this point, so why not 
harvest the low-hanging fruit and go on the record as a nation 
that bans sex-selective abortion? I was laughed at as being 
politically naive; that it would be impossible in the United 
States or any advanced country to place any infringements 
whatsoever on a woman's right to choose.
    But it is not just an issue of choice. Whenever we talk 
about women's choices, we have to look at the context in which 
those choices are taking place. And I think the one-child 
policy is a perfect example of how we have heard that a woman's 
choice was not actually a choice at all. So I worry that we 
can't even have this conversation in the United States of 
America; that it is somehow politically incorrect to raise 
these issues, even though I believe these are terribly 
important issues.
    You asked, did the Pentagon? No, not really. There was a 
few years ago DTRA, the Defense Threat Reduction Agency, did 
ask for sort of a think paper from me and my colleague, and 
that pretty much has been it. So I would be happy to be 
involved in any future endeavors that you might have to bring 
this to the attention of those whose job it is to think about 
security trends in the world.
    I know it seems somehow anachronistic to somehow suggest 
that demographic forces may play a role in future security 
scenarios. I myself don't see it as anachronistic. I see it as 
realistic to think about demographic trends and their 
intersection with security and with economic trends as well. So 
please keep me apprised of any opportunities to bring these 
issues to the attention of those who need to know. I would be 
grateful for that.
    Mr. Smith. On that issue I will ask for a classified 
briefing to find out what, if anything, is being done, and will 
also ask Buck McKeon, who is the chairman of the Armed Services 
Committee, if his committee could look into this as well and 
start asking some questions.
    Ms. Hudson. I want to just apologize in advance if I have 
to run.
    Mr. Smith. I know you have a plane to catch. Thank you.
    Ms. Littlejohn. I just wanted to follow up on Dr. Hudson's 
remark about sex-selective abortion and the conversation that 
she had with those who say that is part of a woman's right to 
choose.
    Because of sex-selective abortion, or gendercide, there is 
one U.N. expert who actually estimated there are 200 million 
women missing, and most of those women are missing from Asia, 
that have this extremely oppressive son preference. And these 
women are not choosing to abort their daughters. They are 
being--I would argue that sex-selective abortion in Asia, which 
is where most of it happens, is a species of forced abortion. 
These women do not have a choice. If they already have a girl, 
or even if they don't already have a girl, they are under 
tremendous pressure from sometimes their husbands, their in-
laws, their own parents, whatever. So for people to abandon 
those women for the rare woman who will choose to have a sex-
selective abortion, say this is a woman's choice, and meanwhile 
abandoning the 99 percent that are being forced to do this, I 
think, is not a helpful approach to the issue.
    Mr. Smith. Ms. Chai?
    Ms. Chai. Yes. Actually I was--maybe I am naive. I saw in 
June when five U.N. organizations who tend to be prochoice 
organizations, you know, the World Health Organization, UNFPA, 
U.N. Women, Human Rights, I think there is one more, they all 
jointly come together to make a declaration against gendercide, 
including gender-based selective abortions. I felt that was a 
great encouragement and gives hope that maybe the U.N. 
organizations are starting to wake up to this massive problem 
the world has created.
    Mr. Smith. With respect, though, I read that report very 
carefully, and it was written in a way that, in my opinion, 
paid lip service to genocide. But if the child in utero is 
completely expendable, as Dr. Hudson said, it is so politically 
incorrect to suggest that killing an unborn baby because she 
happens to be a girl.
    There is a bill which has been introduced by Trent Franks 
of, which I and my colleagues here are cosponsors of, that 
would outlaw it. And Obama would veto it--no doubt about it, if 
we get it passed. The Senate probably wouldn't even take it up. 
But in reading that report--and I take great fault with the 
U.N. agencies, including the UNFPA that signed it, they offer 
several times that this, in no way, should encumber the 
unfettered right to choose an abortion for whatever reason.
    Hillary Clinton, and I hope the next time she testifies, I 
will certainly ask her this, she has changed her rhetoric, not 
that it was ever clear or precise--when it comes to condemning 
what goes on in China. But she made it very clear that she is 
against gendercide when it deals with infanticide; in other 
words, the born young girl. So don't kill the baby at birth; 
don't smother her, which we all absolutely agree with, but not 
before birth. She will not take a stand. And I hope she hears 
this and changes her opinion about the girl who was selected 
for extermination who is in utero, simply because she is a 
girl. Very, very disturbing.
    Even Senator Feinstein, when she made statements during a 
gubernatorial race years ago, made a comment which, at first 
encouraged all of us that sex selection abortion was cruelty 
and wrong, and the pro-abortion NGOs and her opponent, who was 
trying to be more pro-abortion than thou, got on her case and 
she backtracked and became very, very quiet, if you will, and 
worse, no longer supporting the outlawing of sex selection 
abortions. It is an American problem too. The diaspora are 
coming in from some countries, are increasingly using sex 
selection abortions as a means to choose the gender of their 
newborn, by killing the others. So it is a very, very 
disturbing trend. I have other questions. But as a courtesy to 
my colleagues--we are joined by Ann Marie Buerkle, who is both 
a nurse and a lawyer, so she brings both of those professions 
in terms of her experience. But I would like to yield to my 
good friend and colleague, the vice chair of the subcommittee, 
Mr. Fortenberry.
    Mr. Fortenberry. Thank you, Mr. Chairman. Again, let me 
reiterate my sincere thanks for your willingness to testify 
today. Those of us who have been on the subcommittee that looks 
at global human rights issues frankly are barraged constantly 
with such an array of assaults on human dignity, it can almost 
dull the conscience. But I have to share with you that today's 
hearing has, you know, in such a laser-like fashion, affected 
me and informed me and hurt me as to the difficulties and pain 
that you all have gone through and that millions of people who 
are under this repression are continuing to suffer that it 
stands out as one of the most grotesque abuses against humanity 
today.
    Perhaps it is because we are talking about something that 
is conceived in love and should bring about joy. But then is 
this force to be ripped out by an authoritarian cause greater 
than that individual life, greater than that love between the 
couple and perhaps that is why it is so deeply disturbing.
    So again, let me say thank you for your courage and your 
leadership in this regard. Mr. Chairman, I think it should be 
pointed out that, here we are in America. But Ms. Liu is still 
behind a closed area here because she fears reprisals 
potentially taken against those she loves back in China. This 
is simply an outrage and the most grievous assault on human 
dignity. Thank you, Mr. Chairman, for your willingness to probe 
this more deeply.
    How can we sit by idly and not look at this in the face and 
not got our minds around this horror and not act? And in that 
regard, I want to follow up with your question, Mr. Chairman, 
that I don't think was sufficiently unpacked. But I want to 
hear any thoughts that you may have in terms of U.S. companies 
who may be complicit inadvertently, I assume--perhaps not, in 
this forced factory model of monitoring the privacy of women's 
own intimate relations as well as the status of them as 
mothers. Can you provide more information or thoughts on that? 
Yes.
    Ms. Littlejohn. I can provide more thoughts. I cannot 
provide more information. I think we need more information. I 
think that this is a very, very fruitful avenue to pursue. I 
believe that the one-child policy is a crime against humanity. 
It falls within the definition. The legal definition of a crime 
against humanity, as defined by The Hague and the International 
Criminal Court is, it has to be a serious human rights 
violation; and forced sterilization and forced pregnancy are 
already in the list. So forced abortion, there is no legal 
reason to exclude it.
    So it is a serious human rights violation perpetrated or 
tolerated by a regime against a civilian population. So even if 
the Chinese Communist Party says, well, we aren't doing this. 
It is just the people in the hinterlands. Well, they are 
tolerating it because, for example, in that whole thing with 
the Puning forced sterilization campaign that went on for 20 
days, China did nothing to stop it. Okay. So let's say that 
this is a crime against humanity and let's say that American 
corporations are doing business and have factories in China 
that are complicit with it. Okay. I could see lawsuits against 
American corporations charging them criminally with crimes 
against humanity, number one. And number two----
    Mr. Fortenberry. Do you think that American companies have 
very close proximity in terms of ownership or even 
entanglements with management where there are fertility hall 
monitors on a factory floor?
    Ms. Littlejohn. That is what we need to find out. See, this 
is something that is going to take investigation and it is 
probably going to take undercover investigation, you know? I 
think it would be great if there could be teams inside of 
China.
    Mr. Fortenberry. Can you imagine this going on in America?
    Ms. Littlejohn. No.
    Mr. Fortenberry. We can't even imagine that this could 
happen in this country. It is inconceivable. We can't get our 
minds around it, that you would have a company that monitors a 
woman's fertility and forces, as you said, undignified exposure 
on a factory floor. That is not work. That is not employment. 
That is a form of slavery.
    Ms. Chai. Yes.
    Mr. Fortenberry. I am sorry to interrupt you but I think 
you are right. I mean, to continue to explore this possibility 
I think would highlight the larger problem in the society and 
put all of us on notice in America, that if we are going to do 
something about this, this is the place to start. We cannot 
directly cooperate in this.
    Mr. Smith. If you would yield briefly. In your answer, if 
you could give whether or not you would advise us to work on 
legislation that would develop a code of conduct, like the 
Sullivan Principles for South Africa, like the MacBride 
Principles for Northern Ireland, that would get to the heart of 
the complicity. And I know Mr. Fortenberry and I and Ms. 
Buerkle, I am sure, and others could rally around such a code. 
I asked that question one time on a trip to Beijing with the 
U.S. Chamber of Commerce in Beijing. And all but one person--
most of them wouldn't say anything--and then one individual, 
one of the business reps, the U.S. reps in Beijing said, ``Oh, 
but we made sure that that was out of what we agreed to when we 
came here.'' And the others did not say that they agreed to 
take out monitoring women's menstrual cycles and the like. So a 
code of conduct we could use.
    Mr. Fortenberry. Yes. Thank you. That is a good idea.
    Ms. Littlejohn. People hear about the reality, the brutal 
reality behind the one-child policy, and it makes us feel 
outraged and it makes us feel like we want to do something. But 
we feel so impotent because China is a sovereign nation. We 
can't really do anything. Well, we can do something, okay? I 
love the idea of some kind of legislation that would require 
companies doing business in China to not be complicit with 
crimes against humanity, for example. And I think that we could 
have some kind of a corporate social responsibility requirement 
that, when American companies do business in a foreign nation--
you know, it could be even broader than China, that they cannot 
be engaging in crimes against humanity, even if those crimes 
are in conformance with the laws of that country. I mean, there 
is a direct analogy to Nazi Germany. You know, should American 
corporations be able to go to Nazi Germany and be complicit 
with the holocaust even though it was the law of the land? The 
answer is no.
    Mr. Fortenberry. Thank you, Mr. Chairman.
    Mr. Smith. Thank you very much. Ms. Buerkle.
    Ms. Chai. Mr. Fortenberry, I would like to comment on your 
brilliant question, which is absolutely right on target. It is 
something that I would have loved to have seen legislation 
taking place long ago. I couldn't find the right term. I even 
talked to some experts on Capitol Hill--actually, I think I 
spoke to one of your staff a few months ago, saying, what can 
we do to either modify the Anticorruption Act or something for 
all foreign companies who conduct business in China to require 
and demand the local working conditions to be in compliance to 
a certain level of humanity standards? And that was driven by 
an article I think in either The Wall Street Journal or New 
York Times about a factory where they have such a high suicide 
rate, to the point where the factory erected big barbed wires 
and started bringing psychological counselors to come in.
    We don't exactly know what are the reasons to force the 
people to jump through the building to kill themselves. But we 
believe forced abortions, this kind of inhumane treatment, 
abuses toward young women through all levels might be a cause 
or a reason toward that. And that was a company that basically 
supplied the majority of all the components that go into Apple 
computers, goes into iPads, goes into iPhones. And none of 
those workers could ever afford a product like that that they 
were producing or making. The suggestion was, if we have a law, 
none of the U.S. companies can go do these kinds of things for 
a country, that would provide the level playing field. And 
otherwise, individual companies even though they want to take a 
stance, they can't act. We want legislation, a bill to enforce 
that effort, to become the voice and become the governing body 
for the people in China who cannot speak right now.
    Mr. Smith. Ms. Chai, I will commit to you that we will 
draft a code of conduct bill and move it forward--hopefully it 
can be enacted--that hopefully will be a backdrop, like the--I 
mentioned the Sullivan Principles which were transformational 
in South Africa as to how U.S. corporations that did business 
in that apartheid land could only do it if they were completely 
separated from that egregious policy of racism.
    Ms. Chai. If that bill can be drafted sooner, next week. I 
am coming back for a CEO Forum and they will be very interested 
to hear that.
    Mr. Smith. Lamar Smith, the distinguished chairman of the 
Judiciary Committee, was here before and has joined on as a 
cosponsor of H.R. 2121 which would deny visas to those 
individuals who are complicit in these violations of human 
rights, including forced abortion and involuntary 
sterilization. I know that you met with him, and you persuaded 
him--he is a very, very fine chairman--to become a cosponsor, 
and the bill was referred to his committee. So I am very 
grateful for that, on your behalf. Ms. Buerkle.
    Ms. Buerkle. Thank you, Mr. Chairman, and thank you to our 
witnesses today. I apologize for being late. I am a nurse and I 
am an attorney, but I am also the mother of six children and 
four of them are daughters. You just get a knot in the pit of 
your stomach as you listen to this.
    I recently was honored with the designation of being the 
Congressional Delegate to the U.N. So I would like to see how 
we could--not just today but ongoing--take your information and 
be able to work with it through the U.N. Recently, a couple of 
weeks ago, our chairwoman, Ileana Ros-Lehtinen, introduced 
legislation that would reform the U.N., which would look at how 
we spend American taxpayers' dollars, and we don't want to 
spend that money if it goes against the principles of the 
United States of America.
    And this flies in the face of the principles of the United 
States of America. So I would like to take that role, along 
with this legislation that we introduced a couple of weeks ago, 
and push this further to see what we can accomplish that way, 
especially getting more information, holding China accountable 
through the U.N. and certainly with this piece of legislation. 
So I would like to talk further. We will get your information 
so we can do that.
    I guess my first question is, where are the feminists? 
Where are the feminists who are so concerned about women's 
rights?
    Ms. Chai. We don't know. But they still have a chance to do 
something. And I do have a suggestion, Congresswoman Buerkle, 
regarding the UNFPA funding. I see the two sides cannot reach 
agreement right now. Chairman Smith is leading the effort to 
defund the UNFPA and President Obama's side is going to be 
potentially vetoing the funding. So we would like to propose a 
third option. I think that might be a great chance of hope to 
end gendercide, particularly in China, is to modify the UNFPA 
funding into funding that would end gendercide. We--at All 
Girls Allowed--have started a 1-year pilot program. Basically 
we give women who give birth to girls $240 a year, $20 per 
month for a year. To give her dignity, give her respect, let 
her know how to cherish the baby girl she is holding in her 
arms so she doesn't have to, you know, abandon the baby girl or 
be forced to give up the baby girl.
    We have seen a remarkable response. And the mothers would 
give us letters and feedback saying, it was through this 
program that their heads were lifted up, and they took pride in 
their baby girls in their arms and their husbands started 
showing respect for them, their in-laws started showing respect 
to them and the entire community started taking a different 
look at women who gave birth to girls. Just $20 a month, for 
those families who earn under $2 a day, which is 468 million 
Chinese people living today in massive level of poverty, that 
is a significant amount of resource. So if that $50 million can 
be sent to China or India--you know, divide it in whatever way 
they want, and encourage the Chinese Government, we would have 
so much money to match 10 to 1. Then we are talking about $550 
million.
    We recently spoke to a diplomat from Japan. They are very 
sensitive to the rising military expansion of China by the 
single branches, and also the hostility and nationalism toward 
Japan and neighboring countries. So they are interested in 
joining the U.S. effort, if that three-way can be done. 
Basically the U.S. would reform the UNFPA to stop using that 
funding to support forced abortions, but use that money to give 
and receive a baby girl's right to life. And you know to have 
the Chinese Government to join the programs and to give them 
the chance to do something good. And to have the Japanese 
Government participate in this community and effort.
    And if that kind of money can be given to 2-3 million 
families who are going to give birth to baby girls, I believe 
in 1 year China's gendercide can be ended. Then we would come 
back and say, what can we do with the 37 million single men? I 
believe something can be done. I would appreciate your feedback 
and your efforts.
    Ms. Buerkle. Thank you. We would be very interested, yes, 
in talking about the program and looking to see what we can do 
to help.
    Ms. Chai. Yes. I spoke to Speaker Boehner's policy adviser, 
Katherine Haley this morning, and she encouraged us. She said, 
you know, suggest that in the hearing and see whether we can 
have a breakthrough, a creative way to make good happen. So I 
thank you for your time.
    Ms. Buerkle. Thank you.
    Ms. Littlejohn. Representative Buerkle, I wanted to respond 
to your question about the U.N. Two things: Number one, Women's 
Rights Without Frontiers has submitted an extensive complaint 
to the U.N. several months ago about forced abortion in China. 
And I just got an e-mail from them about a week ago saying that 
they are forwarding it to the nation of China. So we will see 
what happens with that. Number two, I participated in the U.N. 
CSW week of--the conference that they give every year. But the 
issue of forced abortion in China was nowhere on the agenda, 
and my presentation was not even a side event. It was like a 
side-side event. And yet it is something that affects one out 
of every five women in the world, and it is the biggest just 
numerically perpetrator of violence against women in the world 
is this one thing.
    So if there is anything that you could do to raise the 
visibility of the issue so that we could discuss the one-child 
policy, maybe even at a side event or maybe even in the plenary 
session of the U.N. CSW conference, that would just be great.
    Ms. Buerkle. Very good. We can talk about that and we will 
strategize a little more and we will get your cards and your 
contact information.
    Oftentimes you hear the apologists saying that the vast 
majority of the Chinese agree with this policy. Can you just 
comment on that. And then I don't want to hold up the chairman, 
but I will yield back.
    Ms. Chai. During the 1989 movement, right before that, we 
were told, the majority of Chinese people don't care about 
politics, don't want freedom, don't want democracy. And we know 
what happened. They were willing to give their lives for that 
freedom. And I believe the majority of Chinese are willing to 
give their lives to have the freedom of their body, of their 
marriage, and of their peace back, if they are allowed to. If 
they are being given the chance, they are not fighting alone. 
And I believe that day will come.
    Ms. Buerkle. Thank you.
    Ms. Littlejohn. I was interviewed this morning on Voice of 
America which was broadcast into China, Taiwan, and Hong Kong. 
And I spoke about the one-child policy. This is the fourth or 
the fifth time that I have spoken on Voice of America directly 
into the nation of China about the one-child policy. And the 
comments that I get back--because people can call in with 
comments and questions. I would say the vast majority of them 
are highly critical of the policy. I think that it is hard to 
gauge what the majority believe in China because they are not 
free to speak. You go over to China and as a tourist and say, 
Well, what do you think about the one-child policy? Do you 
expect that person to actually take the risk of getting 
detained for revealing State secrets by saying, you know what I 
have been a victim of forced abortions three times and I think 
it is the most appalling thing in the world? They can't talk 
about it. They are not free to voice their dissent.
    Ms. Buerkle. Thank you very much. I will look forward to 
our conversation following the hearing. I yield back.
    Mr. Smith. Thank you very much, Ms. Buerkle. Let me just 
conclude with a few final questions. First to Ms. Ji and Ms. 
Liu and Chai Ling as well because we have three people on this 
panel who have suffered forced abortions. If you could just 
briefly speak--we know about the 500 women per day who commit 
suicide in China. Ms. Liu mentioned earlier that she almost 
committed suicide. And I am wondering, the mental health, the 
emotional downside to--or the consequences of this horrific 
policy, how do the women endure this? I mean broken marriages, 
the chemical dependencies of various kinds or just--how do the 
women endure this? Do they go numb?
    Ms. Liu I became very depressed. I just wanted to close up 
inside the home. I didn't want to go out.
    As a mother, when I became pregnant, I had this motherly 
instinct to protect and save my children. My baby literally had 
to be yanked out of my body. In addition to the physical pain, 
I experienced this terrible sense of guilt and shame that I 
somehow failed my child and was not able to protect my child 
and was not able to, you know, give life. I failed at being a 
mother. I felt so deeply guilty, as if I had killed my own 
children with my own hands.
    Mr. Smith. Is it commonplace for the women, even though 
they have been coerced into the abortion, to take the guilt 
onto themselves?
    Ms. Liu Even though I mentally knew in my mind that I was 
forced, somehow I still internalized that guilt and that 
probably explains why I direct anger and resentment toward my 
husband.
    In China, for the people who have wealth, have money, have 
connections to power, they can have a second child and they can 
have more if they want or choose to.
    Mr. Smith. By paying a bribe?
    Ms. Chai. They can pay fines, they can pay bribes, and they 
could find ways to have their babies in America. She felt as a 
worker, a normal average worker, she had no way to protect her 
own children and that further gave her that sense of 
helplessness in that kind of society.
    I felt so deeply shamed, as if I--you know, in my culture, 
I felt like I had failed my father, I had failed my family. And 
I felt that I would become a woman to be pointed at on the 
street, in a public corner or square, to be shamed, to display 
my guilt, whatever things I have done that led to the 
pregnancy. In my book, I write about my growing up and how, 
when I was a young child in grade school, I was goofing around 
with a classmate when we were supposed to study. And the 
teacher came in, dragged a poor boy to the front of the 
classroom and just beat the heck out of the poor boy.
    I was terrified. I thought, well, next he is going to go 
after me. Then when he stopped, he looked at me and he said, we 
have three classes of people. The first class we teach with 
eyes. The second class people we teach with words. And the 
third class of people we teach with our fist. And it was 
internalizing that--it was because of that experience I 
promised myself--I prayed to God, even though I didn't know God 
at that time, I wanted to be an outstanding kid. I would never 
want to be the third class of people that would be taught with 
fists. So when I got pregnant and when I realized I had really 
failed my family, that I was going to bring disgrace to my 
family, it was a fear of being exposed that rushed all of that 
to the forced abortion clinics. Even though I came to a free 
country, when I met Reggie--again, as I said in the book.
    Ms. Littlejohn. You can talk about it.
    Ms. Chai. Thank you for the permission. I started 
realizing, oh, my gosh, this could be four lives. And I could 
have four babies. I sat down with my American husband and I 
felt like I had to confess to him. And at that moment, I just 
felt such a deep sense of pain and it was so deep I just 
couldn't stop crying. Of course, he got up from where I was and 
went to finish his e-mail. And as I was writing, finishing the 
book--and I still felt so afraid to share my own experience--I 
prayed and it was just miraculous. A sister called Wan did not 
know me, yet God made her hear my prayer the next day. She 
decided to connect with All Girls Allowed and she just started 
telling me her own abortion experience, very similar. She was 
in college. A similar situation where the boyfriend's father 
took her to the abortion. When she started to realize what was 
going on, she felt so shamed and she was so afraid to tell 
anybody. For whatever reason, she decided to tell me. I 
listened to her story. I said thank you very much. And I didn't 
tell her my story because I was still so under the shame.
    So this is the first time you are hearing about it. And I 
know a few of my friends in the Chinese community read my 
manuscript and they were shocked. So the culture is being so--I 
don't want to say brainwashed and also saturated with abortion 
culture, with a culture that does not know the Creator, nor 
cherish the creation. It is a culture that values so much the 
goods and products more than humans. And it continues being 
made through violence to violence, through war to war.
    Mr. Smith. A culture of death.
    Ms. Chai. Yes.
    Mr. Smith. Let me just ask two final questions and then any 
final concluding comments you have. Let me just say, it is in 
China's own self-interest to abandon this abomination called 
the one-child-per-couple policy and yet many at the U.N., many 
in the U.S. and now increasingly in Africa we are seeing that 
there is not only support and enabling of it, but there is an 
embrace of it that maybe we need it here. I would point out to 
the committee that you go back to the genesis of child 
limitation. Margaret Sanger, the founder of Planned Parenthood, 
actually wrote a book called ``Child Limitations'' in which she 
admonishes the world to adopt a very small family.
    And she even wrote in one of her books called ``The Pivot 
of Civilization,'' in chapter five, that it is cruel--she 
called it the cruelty of charity to help poor, indigent women 
have babies because then you get more of ``them,'' whatever 
``them'' is, whether it be someone of a certain socioeconomic 
situation or ethnicity. She didn't like Africans. She didn't 
like Asians. She didn't like Catholics. She didn't like 
Italians or Irish. It is all in her books. And we need less of 
them as a direct result.
    That mindset is antithetical to human rights and the 
respect for human rights is now being adopted and is 
mainstreamed through the U.N. through the Obama 
administration--and I say that with enormous sadness because 
the opportunity to be a beacon of hope for the people of China 
has not evaporated, but it has alluded this White House.
    So it is in China's own interest, and I hope they take 
seriously the admonitions of their own demographers and 
certainly what this panel and the work of Dr. Hudson and others 
have done to bring focus to their impending economic implosion 
directly attributable to the one-child-per-couple policy. It 
may take some years but it is going to happen. So I am amazed 
that as smart as so many people are in that government--because 
you know, it is not monolithic. There are people who hopefully 
see it for what it is. It is not only cruel to women and 
children and to men, but it is also sewing the seeds of their 
own demise economically.
    But let me just ask about sex trafficking. I was chagrinned 
that the administration did not include China as a Tier III, 
egregious violator of sex trafficking. I wrote that law. If 
ever there was a country that ought to be on Tier III and, 
therefore, subject to sanctions, it is the People's Republic of 
China, not only for what they do in North Korea where North 
Korean women are sold into slavery, those lucky ones that make 
it across the border. But there has been an exponential rise of 
trafficking in China itself because of the missing girls.
    It is inevitable, given the fact that this policy has that 
kind of consequence. Your thoughts? Perhaps Reggie, you want to 
speak to it. But China is becoming the biggest magnet for sex 
traffickers in the world today, and it will only get worse. 
Today Dr. Hudson amended our understanding. You know 40 million 
men won't be able to find wives by 2020 because they have been 
exterminated. She said that the number is now 40 to 50 million 
men who will not be able to find wives. And she made a very 
good point I think about how, you know, the poor, the 
unskilled, the illiterate, those who may not be as attractive 
as somebody else are the ones likely to fall by the wayside and 
live a life as a ``bare branch.'' On trafficking, if any of you 
would like to speak on that.
    Ms. Littlejohn. I am glad you brought up the issue of the 
North Korean refugees. They are some of the saddest people in 
the world. You have these girls who risk their lives coming 
across the border, thinking they are coming into some kind of 
freedom. If human rights were worse anywhere in the world, it 
is North Korea. And then they get snapped up into this sex 
trafficking trade and they can be raped, they can be beaten. 
They can be tortured. They can't say anything about it because 
as soon as they try to appeal to the authorities, the 
authorities will simply say, oh, you are from North Korea. You 
are an economic migrant. We are repatriating you. And then to 
escape North Korea is considered treason, and they can end up 
in one of the North Korean death camps. So these are some of 
the most helpless people in the world. Now in terms of why 
China is a tier-two as opposed to a Tier III, I can't help 
wondering whether it has something to do with our debt 
situation. You know?
    Mr. Smith. I would hope that the administration would be 
sophisticated enough to know that a country that exports 
products to the tune of over $250 billion in terms of the 
balance of trade, is as reliant on the United States to send 
those products as we are for the trade. And it is $1 trillion 
out of a 14-point what, three or four publicly owned debt. It 
is a fraction--a significant one--but it is a percentage of all 
of our debt. And so my thought is, on the economic issue, we 
give too much credence to the idea that they might stop buying 
treasury bills and, frankly, it is all the more reason why we 
should have linked human rights of every stripe, including 
respect for women who are subjected to forced abortion and 
children as part of our trade policy. Unfortunately, Bill 
Clinton delinked it in 1994. But thank you for those comments. 
Ms. Chai.
    Ms. Chai. Last time we were here on June 13, we went with 
you to testify against child trafficking in China. It is such a 
massive problem taking place every day. One parent showed a 
victim who went to pick up his own daughter at the school and 
was 15 minutes late and his daughter was trafficked. And then 
the same day, I got a $50 bill for being late 15 minutes at my 
kids' school, and I was so grateful. This man's whole life 
changed, lost his job, had to sell his house and property to 
find funding to go on this nationwide campaign to find his 
daughter. And this kind of action took place every day. And it 
is being reported that up to 200,000 children and girls are 
being trafficked every year. And through our report in one of 
the cities inside China in Fujian where they have 3 million 
residents, 100,000 to up to 600,000 may be victims of child 
trafficking.
    It is child trafficking, as young girls are trafficked at a 
young age, as young as even 3 years old to be sold into a 
family that would raise this girl up to marry their own son 
because they don't want their son to become one of the 37 
million single branches. And that is how these families are 
taking matters into their own hands. So yes, we would love to 
have the U.S. leaders' attention and laws to help mediate those 
situations.
    Mr. Smith. Thank you. Is there anything else that any of 
our distinguished witnesses would like to add? I would just 
like to add one other thing maybe as a question or you might 
want to comment on.
    Ms. Liu, you mentioned how your husband was incarcerated. 
In the 1990s, I chaired a hearing that Harry Wu helped 
facilitate where we heard from a woman from Fujian province who 
actually ran one of the family planning centers. She was given 
a pseudonym, Mrs. Gao, because she was fearful of retaliation 
against her family and extended family still in China. And she 
said, by night, she was a wife and mother, and during the day, 
she was a monster. She self-described as a monster. And she 
told us that the family planning cadres and the police in their 
employ had more power to coerce, to arrest, to incarcerate, to 
beat. And I am wondering, you know, one of the other untold 
stories is the fact that the jails of China, and especially the 
detention centers, are failed with men and women, fathers, 
mothers, when a woman does resist, who are trying to get that 
woman to go into the abortion mill for a ``voluntary 
abortion.'' Coercion of every stripe and layer being imposed 
upon her. She told stories that as late as 9 months gestation, 
babies, very, very late, just about to be born, children, that 
women would be pleading with her, Please let me have my baby. 
And to no avail. And they would hold husbands, fathers until 
she voluntarily submitted to the abortion. Is that commonplace 
when a woman resists?
    Ms. Chai. Ms. Liu said, this kind of punishment is very 
common. In the city, mostly its the family members of these 
kinds of parents who refuse to give into the forced abortion. 
They are defiant, trying to keep their babies; then these 
family members end up being incarcerated into a study class 
where they are not allowed to go home. And then they will be 
detained and tormented and continue to go through these kinds 
of ``studies'' until they are in compliance with government 
procedures. In the countryside, it is most common that they 
just use a tractor to demolish people's houses.
    Ms. Littlejohn. By the way, that is all in my report. I 
have got documentation and photographs of exactly these things. 
The demolition of houses and the people in the jail cells, the 
parents and all that in the jail cells. It is all documented 
and I think it is all current.
    Mr. Smith. Ms. Littlejohn, thank you for documenting that. 
I look forward to reading your report. Like I said, it will be 
made a part of the record. Anything else anyone would like to 
add? Let me again conclude by asking the administration, the 
Obama administration to finally cease its silence--and that is 
at best--and its enabling of this great crime against women and 
children. The Kemp-Kasten language is still the law of the 
land, that any organization that supports or co-manages a 
coercive population control program is denied funding. This 
administration has misapplied that clear nonambiguous law and 
has provided $50 million a year to the UNFPA, the U.N. 
population fund. And the situation on the fund vis-a-vis UNFPA 
and its complete following of Chinese law and regulation has 
not changed one bit.
    And I would read very briefly one paragraph from John 
Negroponte's findings which he did on behalf of the Bush 
administration previously and that is that China's birth 
limitation program relies on harshly coercive measures. He 
points out that there is a so-called social maintenance fee or 
social compensation. There are several rewards for couples who 
adhere to the birth limitation laws, including monthly 
stipends. So they get preferential treatment if they adhere to 
it. But he also says that couples who do not comply are 
penalized by denial of these benefits. According to provincial 
regulations, social maintenance fees--in other words, you get 
penalized if you have a child out of the birth allowed regime--
are fined from one-half to 10 times the average worker's annual 
disposable income.
    Those who violate the child limit policy by having an 
unapproved child or helping another to do so may also face 
disciplinary measures such as job loss or demotion loss of 
promotion opportunity and other administrative punishments, 
including as you just said, Ms. Littlejohn, the destruction of 
property, the bulldozing of homes. We call on the 
administration, the State Department to have at least some 
semblance of the human rights policy and stop giving money to 
those groups that have a hand-in-glove relationship with the 
Chinese dictatorship.
    I thank you for bearing witness to the truth. Your 
testimony has been very powerful. Yes?
    Ms. Chai. I do want to end this session with hope. I want 
you all to look at that woman who is there. Her name is Nie 
Lina. And this past May 2010, we got this call from China that 
this woman was detained and was scheduled to go for a forced 
abortion. And people would ask, if President Obama does not do 
anything, if the U.S. leaders do not do anything, what can we 
do? And I happened to--it was at 5:00, 5:30, I was watching my 
daughter's soccer practice. I said you know what, we can do 
something. We can pray. So we sent an urgent prayer letter to 
all our prayer warriors. And we prayed. We prayed for God to 
put his power into these officials' hearts to stop this crime. 
Forty-eight hours later, that woman was released. So I just 
want to end this by saying that hope and rescue are on their 
way. And with time, women will be set free. Thank you.
    Mr. Smith. The hearing is adjourned. Thank you.
    [Whereupon, at 4:46 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                 <all>

</pre></body></html>
